APPENDIX A

United States v. Salvador Moreno Cervantes,
No. 19-51172 (5th Cir. July 13, 2020)
(per curiam)

Case: 19-51172

Document: 00515486471

Page: 1

Date Filed: 07/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-51172
Summary Calendar

FILED
July 13, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
SALVADOR MORENO CERVANTES,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 3:19-CR-2420-1
Before SMITH, DENNIS, and DUNCAN, Circuit Judges.
PER CURIAM: *
Salvador Moreno Cervantes appeals the 37-month, within-guidelines
prison term and two-year supervised release term imposed following his guilty
plea conviction for illegally reentering the United States after removal.
Moreno Cervantes argues that under the principles articulated in Apprendi v.
New Jersey, 530 U.S. 466 (2000), and Alleyne v. United States, 570 U.S. 99
(2013), 8 U.S.C. § 1326(b) is unconstitutional because it permits an enhanced

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-51172

Document: 00515486471

Page: 2

Date Filed: 07/13/2020

No. 19-51172
penalty based on the fact of a prior felony conviction not alleged in the
indictment nor found by a jury beyond a reasonable doubt. The Government
has filed an unopposed motion for summary affirmance and, alternatively,
seeks an extension of time to file its brief.
As the Government argues and as Moreno Cervantes concedes, this issue
is foreclosed by Almendarez-Torres v. United States, 523 U.S. 224 (1998). See
United States v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v.
Pineda-Arrellano, 492 F.3d 624, 625-26 (5th Cir. 2007). Because the issue is
foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc. v.
Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgment is AFFIRMED. The Government’s alternative
motion for an extension of time to file its brief is DENIED.

2

APPENDIX B
United States v. Moreno Cervantes,
Indictment, EP-19-CR-2420
July 24, 2019

Case 3:19-cr-02420-FM Document 10 Filed 07/24/19 Page 1 of 1

JUDGE FRANK MONTALVO
IN THE UNITED STATES DISTRICT COURT
FOR TIlE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION

2019

JUL

21+

P

I: 09

CLE:

UNITED STATES OF AMERICA,

§
§

Plaintiff,

§

CRIMINAL NO. EP-19-Cg.STL

XAS

INDICTMENT

§

v.

§

CT 1: 8 U.S.C. § 1326(a) - Illegal Re-Entry

§

SALVADOR MORENO CERVANTES,

§
§

Defendant.

§

EP 1 9 CR 2 420

THE GRAND JURY CHARGES:

COUNT ONE
(8 U.S.C. § 1326(a))
On or about July 3, 2019, in the Western District of Texas, Defendant,

SALVADOR MORENO CERVANTES,
an alien, who had previously been excluded, deported, and removed from the United States on or

about March 15, 2019, attempted to enter, entered, and was found in the United States, without
having previously received express consent to reapply for admission from the United States

Attorney General and the Secretary of Homeland Security, the successor pursuant to Title 6,
United States Code, Sections 202(3), 202(4) and 557, in violation of Title 8, United States Code,
Section 1326(a).

A

TRUEA

SIGNATURE
REDACTED PURSUANT TO
ACT OF 2002

FOREPERSON OF THE GRAND JURY
JOHN F. BASH
UNITED STATES ATTORNEY
BY:

Assistant U.S. Atrney

19-51172.17

APPENDIX C
8 U.S.C. § 1326

§ 1326. Reentry of removed aliens, 8 USCA § 1326

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who--

(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of
exclusion, deportation, or removal is outstanding, and thereafter

(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at
a place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying for admission; or (B) with respect to an alien previously
denied admission and removed, unless such alien shall establish that he was not required to obtain such advance
consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.

(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection--

(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs,
crimes against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title
18, imprisoned not more than 10 years, or both;

(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined
under such title, imprisoned not more than 20 years, or both;

(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was
excludable under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

provisions of subchapter V, and who thereafter, without the permission of the Attorney General, enters the United
States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall
not run concurrently with any other sentence. 1 or

(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without
the permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless
the Attorney General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or State law.

(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in,
the United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for
the remainder of the sentence of imprisonment which was pending at the time of deportation without any reduction for
parole or supervised release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens
as may be available under this section or any other provision of law.

(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described
in subsection (a)(1) or subsection (b) unless the alien demonstrates that--

(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;

(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for
judicial review; and

(3) the entry of the order was fundamentally unfair.

CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102
Stat. 4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b),
Sept. 13, 1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276,
1279; Pub.L. 104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat.
3009-606, 3009-618 to 3009-620, 3009-629.)

Notes of Decisions (1300)

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

Footnotes
So in original. The period probably should be a semicolon.
1
So in original. Section 1252 of this title, was amended by Pub.L. 104-208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996, 110
2
Stat. 3009-607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained in section
1252(h)(2) of this title, see 8 U.S.C.A. § 1231(a)(4).

8 U.S.C.A. § 1326, 8 USCA § 1326
Current through P.L. 115-173. Also includes P.L. 115-176 to 115-178. Title 26 current through 115-182.
End of Document

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

© 2018 Thomson Reuters. No claim to original U.S. Government Works.

3

